<html>
<title> - FEDERAL MARITIME NAVIGATION PROGRAMS: INTERAGENCY COOPERATION AND TECHNOLOGICAL CHANGE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


   FEDERAL MARITIME NAVIGATION PROGRAMS: INTERAGENCY COOPERATION AND 
                          TECHNOLOGICAL CHANGE

=======================================================================

                                (114-51)

                              JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                AND THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 7, 2016

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
                             ____________
                             
                    U.S. GOVERNMENT PUBLISHING OFFICE
21-415 PDF                  WASHINGTON : 2017                    
___________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7b0a7b897b4a2a4a3bfb2bba7f9b4b8baf9">[email&#160;protected]</a>  







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
MARK MEADOWS, North Carolina         RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
ROB WOODALL, Georgia                 ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 LOIS FRANKEL, Florida
JOHN KATKO, New York                 CHERI BUSTOS, Illinois
BRIAN BABIN, Texas                   JARED HUFFMAN, California
CRESENT HARDY, Nevada                JULIA BROWNLEY, California
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
MIKE BOST, Illinois

                                  (ii)

  

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman

DON YOUNG, Alaska                    JOHN GARAMENDI, California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
BOB GIBBS, Ohio                      CORRINE BROWN, Florida
MARK SANFORD, South Carolina         JANICE HAHN, California
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
CARLOS CURBELO, Florida              JULIA BROWNLEY, California
DAVID ROUZER, North Carolina         PETER A. DeFAZIO, Oregon (Ex 
LEE M. ZELDIN, New York              Officio)
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 ______

            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

CANDICE S. MILLER, Michigan          GRACE F. NAPOLITANO, California
DUNCAN HUNTER, California            DONNA F. EDWARDS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              LOIS FRANKEL, Florida
JEFF DENHAM, California              JARED HUFFMAN, California
REID J. RIBBLE, Wisconsin            EDDIE BERNICE JOHNSON, Texas
THOMAS MASSIE, Kentucky              ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
TODD ROKITA, Indiana                 ELIZABETH H. ESTY, Connecticut
JOHN KATKO, New York                 ELEANOR HOLMES NORTON, District of 
BRIAN BABIN, Texas                   Columbia
CRESENT HARDY, Nevada                RICHARD M. NOLAN, Minnesota
GARRET GRAVES, Louisiana             PETER A. DeFAZIO, Oregon (Ex 
DAVID ROUZER, North Carolina         Officio)
MIKE BOST, Illinois
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

  
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

Rear Admiral Paul F. Thomas, Assistant Commandant for Prevention 
  Policy, U.S. Coast Guard:

    Testimony....................................................     9
    Prepared statement...........................................    38
    Responses to questions for the record from the following 
      Representatives:

        Hon. John Garamendi of California........................    43
        Hon. Todd Rokita of Indiana..............................    47
Rear Admiral Shepard M. Smith, Director, Office of Coast Survey, 
  National Ocean Service, National Oceanic and Atmospheric 
  Administration:

    Testimony....................................................     9
    Prepared statement...........................................    49
    Responses to questions for the record from Hon. John 
      Garamendi, a Representative in Congress from the State of 
      California.................................................    59
Edward E. Belk, Jr., P.E., Chief, Operations and Regulatory 
  Division, U.S. Army Corps of Engineers:

    Testimony....................................................     9
    Prepared statement...........................................    61

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Peter A. DeFazio of Oregon..................................    32
Hon. John Garamendi of California................................    35

                       SUBMISSIONS FOR THE RECORD

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, request to submit the following:

    Letters of opposition to the Vessel Incidental Discharge Act 
      \1\
    Letter of September 7, 2016, from Hon. Grace F. Napolitano, 
      Ranking Member, Subcommittee on Water Resources and 
      Environment, to Hon. Bill Shuster, Chairman, Committee on 
      Transportation and Infrastructure..........................     7
Rear Admiral Paul F. Thomas, Assistant Commandant for Prevention 
  Policy, U.S. Coast Guard, response to request for information 
  from Hon. John Garamendi, a Representative in Congress from the 
  State of California............................................    30

                        ADDITIONS TO THE RECORD

Written statement of Edward Saade, President, Fugro (USA) Inc....    66

----------
\1\ The letters referenced by Congresswoman Napolitano are available 
online at GPO's Federal Digital System (FDsys) at https://www.gpo.gov/
fdsys/pkg/CPRT-114HPRT23997/pdf/CPRT-114HPRT23997.pdf.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 
   FEDERAL MARITIME NAVIGATION PROGRAMS: INTERAGENCY COOPERATION AND 
                          TECHNOLOGICAL CHANGE

                              ----------                              


                      WEDNESDAY, SEPTEMBER 7, 2016

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
Transportation,joint with the Subcommittee on Water 
                         Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:05 a.m. in 
room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the Subcommittee on Water Resources and 
Environment) presiding.
    Mr. Hunter. The subcommittees will come to order. The Coast 
Guard and Maritime Transportation and the Water Resources and 
Environment Subcommittees are jointly meeting today to review 
the Federal Government's navigation programs.
    From the earliest days of the United States, the Federal 
Government took responsibility for activities necessary to 
promote international and interstate trade, including 
activities that promote safe and efficient maritime navigation. 
Navigation activities of the Coast Guard, the Army Corps of 
Engineers, and the National Oceanic and Atmospheric 
Administration provide for a safe, secure, and efficient Marine 
Transportation System that forms the backbone of our economy. 
The maritime sector contributes more than $650 billion annually 
to the U.S. gross domestic product and sustains more than 13 
million jobs. Nearly 100 percent of our overseas trade enters 
or leaves the United States by vessels navigating the Marine 
Transportation System.
    To maintain this economic output, facilitate the efficient 
movement of goods, protect the environment, and ensure the 
safety and security of Marine Transportation Systems, the 
navigable waters of the United States are charted, marked, and 
dredged on a regular basis. NOAA is tasked with surveying and 
producing over 1,000 nautical charts covering 95,000 miles of 
shoreline and 3.4 million square nautical miles of waters; the 
Corps is responsible for surveying and maintaining the depth of 
nearly 25,000 miles of Federal navigation channels throughout 
the country; and the Coast Guard is charged with the 
maintenance of over 47,000 Federal Government-owned buoys, 
beacons, and other aids to navigation that mark 25,000 miles of 
waterways. That is a lot.
    It has been 2 years since the last hearing on this topic. I 
am interested in hearing from the agencies on progress made to 
carry out these missions in a coordinated, cost-effective 
manner, while also ensuring the safety, security, and 
efficiency of our waterways and taking advantage of ongoing 
technological advances. The agencies held 12 joint public 
listening sessions in 2014 to better understand the needs of 
the user groups, and I look forward to the agencies updating 
the subcommittees on what they heard from user groups and how 
the agencies went forward or will go forward to meet the user 
needs.
    In an age of electronic communications and digital 
technology, I am interested to understand if the agencies have 
been able to keep up with technological improvements and the 
way in which charting data is collected and displayed. Is the 
private sector able to use the data to develop their own 
products to assist mariners, and are Federal actions assisting 
these endeavors? Are Federal regulations supportive or do they 
impede the move to a digital world? And as we move toward the 
use of more e-navigation systems, are adequate redundancies and 
backup systems like e-loran available to ensure safety?
    In order to grow jobs and remain competitive in a global 
economy, we must build and maintain a reliable, world-class 
navigation system. I look forward to hearing from our witnesses 
on what progress they have made towards making such a system a 
reality.
    And, with that, I am not going to hear about it, I am going 
to read about it when I read the transcript. The Armed Services 
Committee is doing a classified overview of the entire Middle 
East, which I am going to go and hear the ops briefing on and 
then come back in here and resume.
    So, I am going to turn it over right now to Mr. Gibbs, who 
is going to chair this and who chairs the Water Resources and 
Environment Subcommittee. With that, I yield to Mr. Gibbs.
    Mr. Gibbs. At this time I will yield to the ranking member 
of the Coast Guard and Maritime Transportation Subcommittee, 
Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Gibbs, Mr. Chairman. Welcome 
back to all of us. We have got a busy month out ahead in 
September, and thank you for scheduling this meeting, 
particularly with the Subcommittee on Water Resources and 
Environment.
    As we continue our oversight into the future of maritime 
navigation, the timing of this hearing could not be better. 
Only last week an article ran in the Wall Street Journal 
entitled, ``Pilotless sailing is on the horizon. Freight 
carriers aim to optimize the use of vessels, cut their fuel and 
labor costs.'' This article revealed that right now ship 
designers, operators, and regulators are gearing up for a 
future in which cargo vessels sail the oceans and waterways 
with minimal or even no crew. And it foresees a day in the not-
too-distant futures when technology, long used to improve the 
commercial airline operations, will migrate to vessels.
    Coming less than 2 weeks after the release of the FAA's 
pioneering rulemaking governing the use of commercial drones, 
the Wall Street Journal article reinforced in my mind that the 
dawn of a new age of fully automated or even autonomous 
transportation systems is upon us. The implications of such a 
transformation could signal greatest innovation in maritime 
transportation since the conversion from steam to diesel-
powered propulsion systems, or the advent of containerization.
    Yet do we fully grasp the scale and complexity before us? I 
don't think so. The tremendous size and expense of the newest 
generation of mega-container ships such as the Benjamin 
Franklin, which can carry up to 18,000 containers, make the 
financial, commercial, and environmental risks enormous. And 
for global maritime industry that sustains the reliable and 
efficient global supply chain that fuels the U.S. economy, 
failure and accidents could be devastating.
    Additionally, this transformation will only increase our 
reliance on electronic data, virtual aids to navigation, and 
other network navigation technologies such as radars, chart 
plotters, gyrocompasses that rely on positioning, navigation, 
and timing signals provided by GPS. But we do know that GPS is 
the single point of failure.
    The fact of the matter is that the Coast Guard has such 
identified GPS as the vulnerable--as cybersecurity--therefore, 
the Coast Guard Commandant, Admiral Zukunft, has said that GPS 
is the single point of failure in this critical infrastructure. 
We need to work on that. We've been talking in this committee 
and others about the problems of the GPS system and the 
necessity of a backup. I suspect we're going to hear some of 
that. We're going to learn a great deal.
    Thank you for the hearing. I yield back my time.
    Mr. Gibbs. Ranking member of the full committee, Mr. 
DeFazio, do you have an opening statement?
    Mr. DeFazio. I will just submit one for the record.
    Mr. Gibbs. OK, thank you. As chairman of the Water 
Resources and Environment Subcommittee, I am pleased to be here 
at this joint hearing with the Coast Guard and Maritime 
Transportation Subcommittee.
    There is no doubt the nexus between the Army Corps of 
Engineers, the National Oceanic and Atmospheric Administration, 
and the Coast Guard are vitally important to ensuring the 
safety and security of our Nation's Marine Transportation 
System, and ensuring a competitive edge for U.S. goods in 
overseas markets.
    I would also like to thank our witnesses for being here 
today. We have Mr. Eddie Belk here from the Army Corps of 
Engineers. He serves as the Chief of the Operations and 
Regulatory Division. I look forward to hearing his testimony 
about how the Corps of Engineers collaborates with both NOAA 
and the Coast Guard.
    The Corps of Engineers is responsible for the operation and 
maintenance of nearly 25,000 miles of Federal navigation 
channels, which includes both coastal and inland channels. It 
will be interesting to hear how advanced technologies have 
played a role in maintaining the authorized widths and depths 
of these channels, as well as improving the safety for vessels 
that transit the inland and the coastal systems.
    In addition to dredging, the Corps is also responsible for 
operating and maintaining more than 240 locks at more than 190 
sites on the inland water river system. The average age of 
these facilities is more than 60 years old. In 2014, Congress 
enacted critical reforms to improve the inland navigation 
system, both in WRRDA 2014 and a fuel tax increase requested by 
industry that are intended to recapitalize our aging inland 
navigation systems. While a large component of the Inland 
Navigation Trust Fund is dedicated to completing the Olmsted 
Locks and Dam project, it will be interesting to hear from the 
Corps as to how they plan on accelerating and prioritizing the 
other inland navigation projects on the Ohio and Mississippi 
River systems.
    Additionally, the Corps is responsible for operating and 
maintaining the channels that lead to and from the Nation's 
large network of coastal ports. At any given time only 35 
percent of these channels are at their authorized widths or 
depths, and we remain concerned the administration's budget 
requests for these activities fall far short of what is 
required.
    Congress did its part in fiscal year 2016 by providing 
almost $1.3 billion from the Harbor Maintenance Trust Fund, 
which meets the suggested targets from WRRDA 2014. While other 
trust funds have solvency challenges, the Harbor Maintenance 
Trust Fund is being neglected by this administration. Their 
annual budget for the Corps of Engineers does not reflect the 
priorities of the Congress or this Nation.
    Given the vast expanse of navigation channels, our advanced 
technology can help improve navigation safety and advance 
economic security, but only to a certain point. These 
technologies need to be coupled with an adequate channel 
maintenance and recapitalization of antiquated infrastructure 
to ensure the Nation's competitive edge in the global 
marketplace.
    I now would like to yield----
    Mr. Garamendi. If I might, Mr. Chairman, I do note that I 
am also on the Armed Services Committee and that classified 
briefing is going on, so I am going to excuse myself. My 
colleagues on our side are going to remain here.
    Mr. Gibbs. OK, thank you. I yield to--for any opening 
statements--to the ranking member of the Subcommittee on Water 
Resources and Environment, from California, Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman, for recognizing 
me. I appreciate your calling attention to the importance of 
this Nation's maritime transportation network.
    Our historic investments in commercial harbors, inland 
waterways, and port infrastructure have been critical to the 
economic health and prosperity of our communities, our States, 
and our Nation. Mr. Chairman, as you know, this committee is--
was successful in moving the bipartisan Water Resources 
Development Act before the August break. I am hopeful that, 
with your leadership, we can continue to advance the bill 
forward before the end of this Congress.
    The water resources bill shows what this committee can do 
when it works on a bipartisan basis to address the critical 
needs of this Nation. However, there is another issue pending 
before Congress that has taken a far different path and has 
resulted in confusion, uncertainty, strong opposition from 
States and stakeholders alike. Mr. Chairman, I am referring to 
language currently under negotiation in the National Defense 
Authorization Act that weakens Federal, State, and local 
authority to address pollutant discharges from vessels.
    As you know, pollution legislation fails to exclusively--
falls exclusively within this committee's jurisdiction. In 
fact, the last bill this committee formally considered was in 
the 112th Congress called the Commercial Vessel Discharges 
Reform Act. Yet, seemingly out of nowhere, an entirely new 
vessel pollution bill called the Vessel Incidental Discharge 
Act, or VIDA, has been added to a non-germane bill in another 
committee, and is now under negotiations a joint House and 
Senate conference.
    Mr. Chairman, as you know, the committee Democrats objected 
to the inclusion of this never-before-seen proposal in the 
defense bill. This proposal is radically different from the 
bill this committee explored over 4 years ago, and has drawn 
opposition from States and stakeholders alike. I would guess 
that no member on this committee can explain exactly what this 
legislation would do, who wrote it, or who would benefit from 
it as, to the best of my knowledge, this proposal has undergone 
no congressional hearings in the House or the Senate. I know 
for certain no committee member or staff of the minority party 
has been part of the process.
    What is worse is that, despite the lack of transparency, 
the list of States and organizations opposed to this proposal 
is growing as more entities come to learn of its existence. 
Over the past few weeks, the House and Senate have received 
numerous letters from States and organizations expressing 
concerns with the vessel pollution bill, which I ask for 
unanimous consent to include in my remarks for the record. \2\
---------------------------------------------------------------------------
    \2\ The letters referenced by Congresswoman Napolitano are 
available online at GPO's Federal Digital System (FDsys) at https://
www.gpo.gov/fdsys/pkg/CPRT-114HPRT23997/pdf/CPRT-114HPRT23997.pdf.
---------------------------------------------------------------------------
    Mr. Gibbs. So moved.
    Mrs. Napolitano. These organizations, which include State 
water pollution control agencies and State environmental 
agencies, State fish and wildlife agencies, State boating 
administrators, all express their concern that ``VIDA exempts 
State authorities to protect State waters from harmful invasive 
species and water pollution discharge vessels.'' Further, these 
State agencies believe that ``VIDA will have adverse 
consequences on water quality, sources of drinking water, and 
sensitive aquatic resources.''
    Mr. Chairman, over the past few years we have seen 
countless examples where drinking water supplies of large and 
small towns across the U.S. have been compromised by pollution 
and invasive species. In my district and in the Western States 
we are plagued with the invasion of the quagga mussel that has 
clogged water distribution systems, added pollution, and 
created hundreds of millions of dollars in costs for local 
water agencies and our constituency.
    Right now, in more communities, we cannot say that the 
water that is delivered to our homes or our schools or our 
workplaces is safe to drink. Think about that. Here, in the 
United States, we cannot say with certainty that water we are 
providing our citizens is always safe to drink. Yet, according 
to the--the VIDA will have adverse consequences of water 
quality and resources--and sources of drinking water in the 
U.S.
    So, then, will this legislation improve the operation of 
vessels in the armed forces and national security? No, because 
the discharge requirements for the vessels of the armed forces 
are unchanged by this legislation. So this precious--this 
legislation puts our precious State resource waters in jeopardy 
to ensure that a small universe of commercial and fishing boats 
are no longer regulated under clean water permitting 
requirements.
    Mr. Chairman, we have an obligation to understand proposed 
legislation before it has the potential to become law. 
Therefore, I am requesting that this committee undertake a 
formal legislative hearing on the vessel pollution before 
further action is taken in the House. I ask unanimous consent 
that a letter formally requesting this action be added to the 
record.
    Mr. Gibbs. So ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Napolitano. In my view, far too little attention is 
being given to the important topic to jam untested language 
through on a non-germane bill with virtually no congressional 
oversight within the proper committee of jurisdiction.
    Our water, our local natural resources, are far too 
precious to take action on this proposal without fully 
understanding its impact.
    I yield back the balance of my time.
    Mr. Gibbs. At this time I want to welcome our three 
witnesses.
    Our first witness is Rear Admiral Paul Thomas. He's 
Assistant Commandant for Prevention Policy, United States Coast 
Guard.
    Our second witness is Rear Admiral Shepard Smith. He's the 
Director of the Office of Coast Survey, National Oceanic and 
Atmospheric Administration, or NOAA.
    And Mr. Edward Belk, he is the Chief of the Operations and 
Regulatory Division of the United States Army Corps of 
Engineers.
    Admiral Thomas, welcome, and the floor is yours.

TESTIMONY OF REAR ADMIRAL PAUL F. THOMAS, ASSISTANT COMMANDANT 
 FOR PREVENTION POLICY, U.S. COAST GUARD; REAR ADMIRAL SHEPARD 
  M. SMITH, DIRECTOR, OFFICE OF COAST SURVEY, NATIONAL OCEAN 
 SERVICE, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION; AND 
  EDWARD E. BELK, JR., P.E., CHIEF, OPERATIONS AND REGULATORY 
             DIVISION, U.S. ARMY CORPS OF ENGINEERS

    Admiral Thomas. Good morning, Chairman Gibbs, Ranking 
Member Napolitano, and distinguished members of the 
subcommittees. I am honored to be here today to update you on 
the Coast Guard's efforts to modernize marine navigation 
systems and to enhance mariner situational awareness.
    With the growth and diversification in domestic energy 
production and the associated industries, increased use of 
Arctic shipping lanes, and the simple need to move more people 
and cargo by water in the decades to come, the demand on our 
Marine Transportation System, or MTS, is unprecedented and it 
is growing.
    Working with our partners, such as NOAA and the Army Corps 
of Engineers, and through the interagency Committee on the 
Marine Transportation System, or CMTS, which I am proud to 
chair, we are modernizing America's waterways for the 21st 
century.
    Through six key initiatives, carried out with extensive 
stakeholder and interagency outreach and coordination, we are 
reviewing and baselining our current aids-to-navigation system. 
We are modernizing our physical aids system. We are 
incorporating automatic identification system, or AIS ATON, 
into system design and operation. We are modernizing the 
delivery of marine safety information to the mariner, 
developing data-driven, risk-based tools for modern waterway 
system design. And finally, we are improving public 
notification and participation in waterway system improvements.
    To enhance our physical ATON constellation, we are now 
broadcasting over 350 electronic aids through the nationwide 
automatic identification system. This year we will prototype 
our smart bridge, smart lock, and digital light ship 
initiatives, all of which provide waterway users real-time 
information about navigational aids and navigational 
conditions, and enable smarter decisions that help to increase 
safety, reduce congestions on our waterways, and enhance the 
environment. And we can do this even in areas where AIS 
broadcasts are not currently available.
    Our interagency enhanced marine safety information 
initiative, or the EMSI initiative, will coordinate all 
Government-provided navigation information services into a 
single integrated service delivered via the Web, accessible on 
common devices, and interoperable with existing shipboard and 
land-side navigation and logistics systems.
    For the first time, a mariner will be able to enter an 
intended route and quickly and easily find all the information 
needed to safely navigate that route. In the near future we 
will build a capacity to provide real-time updates to the 
mariner during the transit.
    But even as technology continues to change how mariners 
navigate on our waterways, we remain focused on implementing 
the proper mix of physical and electronic aids to navigation. 
The Coast Guard understands that physical aids will continue to 
be a vital component of our ATON system. Given this, it is 
critical that we recapitalize our aging fleet of inland and 
construction tenders. Our fleet of 35 inland aids to navigation 
cutters services over 27,000 aids, or 56 percent of the entire 
physical ATON constellation, nationwide.
    And yet, this fleet has an average age of 52 years, with 
some of our cutters more than 60 years old. The fleet is well 
past its service life, but we are committed to maintaining 
operational capability on our inland waterways. To that end, we 
are in the final stages of the Inland River Tender Emergency 
Sustainment project, intended to maintain the operational 
capability of these cutters until a solution can be identified. 
And we have worked closely with the Army Corps to research 
alternatives for the recapitalization of this fleet.
    In addition, the Coast Guard is currently conducting 
comprehensive mid-life vessel sustainment for our fleet of 225-
foot seagoing buoy tenders, and our 175-foot coastal buoy 
tenders, to ensure that they can continue to sail safely, and 
effectively execute their critical missions.
    The Service is grateful to this subcommittee's strong and 
ongoing support for the sustainment and recapitalization of 
these nationally critical fleets.
    Again, I want to thank you for the opportunity to testify 
today, and for your continued support of the United States 
Coast Guard. I look forward to your questions.
    Mr. Gibbs. Thank you, Admiral.
    Admiral Smith, welcome, and the floor is yours.
    Admiral Smith. Good morning, Chairman Gibbs, Ranking Member 
Napolitano, and members of the subcommittees. My name is Shep 
Smith, and I am the Director of the Office of Coast Survey at 
the National Oceanic and Atmospheric Administration. In this 
capacity, I also represent the United States at the 
International Hydrographic Organization. Thank you for the 
opportunity to testify today on how NOAA is advancing 
navigation services.
    I am pleased to testify alongside the United States Coast 
Guard and the Army Corps of Engineers. Our agencies coordinate 
activities and programs regularly, from local and regional 
harbor safety committees to national program coordination and 
joint participation in academic and public venues.
    This hearing comes at a pivotal time for marine navigation, 
and I am pleased to offer some highlights of my full testimony, 
which is submitted for the record.
    NOAA's role in marine navigation is to provide 
authoritative nautical charts--tides and currents and weather. 
I will be focusing my brief remarks today on nautical charting.
    We have nearly completed a transition to a digital nautical 
charting production system, which will improve the consistency 
and efficiency of our charting program. Just as importantly, it 
will allow us to move beyond the limitations of depicting 
information on paper charts, creating digital charts optimized 
for the needs of today's electronic navigation systems, and 
supporting increasingly automated navigation. Over the coming 
year we will be drafting and taking public input on a new, 
national charting plan which will incorporate all of this 
public input to envision an updated chart suite.
    In addition to new charting technology, NOAA is leaning 
forward to take advantage of the proliferation of available 
relevant geospatial information and observation technology. We 
are using satellite imagery derived bathymetric estimates in 
shallow, clear areas. We have stood up a public database for 
worldwide crowd source depth data from volunteer vessels with 
the potential for thousands of users within a few years. We 
plan to use this satellite data and crowd source depth data to 
identify areas where charts are no longer accurate, and to 
support temporary chart updates.
    We are using LiDAR [Light Detection and Ranging] data from 
Army Corps and NOAA aircraft to accurately survey shallow 
coastal waters. We use multibeam data from other agencies where 
it is available, relevant, and suitable for charting use. We 
have begun to use unmanned survey systems to complement our 
manned systems, and we see opportunity for greater use in the 
near future.
    At the core of our survey efforts, our own ships and 
aircraft and those of our hydrographic contractors provide the 
high resolution object detection surveys needed to accurately 
measure depths and find isolated hazards, and in areas where 
other sources are not available.
    NOAA is working to ensure the Nation has a fleet of 
research ships that meet the Nation's observation requirements. 
Coast survey is engaged with the NOAA planning efforts to 
identify and refine the requirements for replacement survey 
vessels capable of supporting unmanned systems and sustained 
operations in environmentally sensitive areas.
    In electronic navigation systems, charts are used along 
with information from weather, water levels, currents, 
constantly changing channel conditions, and EMSI to plan, 
monitor, and execute a voyage. Many of the most innovative and 
advanced navigation systems are made by U.S. companies, and are 
built on the foundation of NOAA's, the Coast Guard's, and the 
Army Corps' freely available navigation information. These 
systems are putting the best available technology onto U.S. 
boats and improving the safety of the commercial vessels and 
the 34 million U.S. boating families.
    We have begun a test bed project in the Port of L.A./Long 
Beach to prototype a new high resolution chart to support 
precision navigation for large ships transiting the tightly 
constrained waterways of that port.
    NOAA is working with the Coast Guard on the two Arctic port 
access route studies and with the Army Corps on their Arctic 
deepwater port study. In addition, we hosted a charting 
workshop in Anchorage in March of this year with Federal, 
State, tribal, and local interests to prioritize the highest 
risk areas for Arctic navigation.
    To date, we have focused our survey and charting efforts 
along frequently traveled routes, in approaches to towns and 
facilities, and in potential harbors of refuge. Our survey work 
in Alaska is highly constrained by a short survey season, lack 
of logistical support, and the age of our two survey ships, 
both approaching 50 years old.
    NOAA plays a unique and important role by providing 
critical information infrastructure to support safe, reliable, 
and efficient navigation in maritime commerce. Thank you for 
the opportunity to discuss the state of NOAA's services with 
you this morning, and I welcome any questions you may have.
    Mr. Gibbs. Thank you, Admiral.
    Mr. Belk, welcome, and the floor is yours.
    Mr. Belk. Thank you, Chairman Gibbs. And thank you as well 
to Chairman Hunter and the distinguished members of both 
subcommittees. I am Eddie Belk, Chief of the Operations and 
Regulatory Division for the U.S. Army Corps of Engineers here 
at our headquarters in DC. I am honored to appear before you 
this morning to discuss issues associated with Federal maritime 
navigation programs, with an emphasis on interagency 
cooperation and technological change.
    This fiscal year the Corps is investing just over $2.6 
billion appropriated by Congress to study, design, construct, 
operate, and maintain our national infrastructure portfolio, 
including channel deepening projects to accommodate post-
Panamax vessels and recapitalizing aging locks and dams to 
increase reliability and efficiency of our inland waterways. 
This investment also supports continued development of data-
informed navigation capabilities and technologies that I will 
discuss this morning.
    Over the past decade the Corps has experienced significant 
improvement in the data we collect, create, and utilize to 
operate and manage Corps maritime assets. Our philosophy is to 
collect data once and then use it many times over by sharing it 
very broadly both within the Corps and with others.
    The concept behind e-navigation, as we call it, emphasizes 
harmonizing data and information across all public and private 
stakeholders. We believe that interagency e-navigation efforts 
directly contribute to improved safety, efficiency, and 
reliability of the Marine Transportation System.
    The Corps is successfully applying e-navigation 
capabilities today, with more on the way, through ongoing 
research and development programs. The Corps is the United 
States nautical charting authority for inland waterways. For 
the past decade, the Corps has created over 7,200 miles of 
detailed inland electronic navigational charts. Since 2013, 
over 6 million of our charts and chart updates have been 
downloaded by mariners, providing the most up-to-date 
information for safely navigating our waterways.
    The Corps is responsible for surveying all Federal 
channels, harbors, and waterways in order to report channel 
conditions to our partners and stakeholders. The past year the 
Corps deployed our e-hydro tool across all coastal offices. 
This tool takes hydrographic surveys of the navigation channels 
and standardizes the data for use in enterprise tools. This 
improves our ability to more quickly create and disseminate 
more consistent products.
    Example products include automatic development of channel 
condition reports that are provided to NOAA for their use in 
nautical charting of coastal waters, as well as standardized 
electronic maps for use by waterway operators, ship pilots, 
Federal partners, and the public. The e-hydro tool is being 
expanded to the inland waterways with applications that create 
inland survey overlays for Coast Guard use to improve the 
accuracy and efficiency of setting physical buoys on our 
rivers.
    Another recently developed e-navigation tool is the Corps 
of Engineers lock operations management application, or LOMA. 
This uses real-time vessel tracking data from vessel automatic 
identification systems, or AIS, to provide our lock operators 
with visibility on the movement of commercial vessels along the 
inland waterways. LOMA was deliberately designed to be 
interoperable with the Coast Guard's nationwide AIS system, 
using common architecture and software to manage the millions 
of daily AIS data messages from moving vessels.
    Building LOMA in partnership with the Coast Guard saved the 
Corps time and significantly reduced development risks. The 
Corps and the Coast Guard continue to work in partnership to 
improve the system, and to make the most of these shared 
capabilities.
    Other capabilities being tested include the transmission of 
information on physical aids to navigation that augment those 
important directional and safety tools. For the first time on 
U.S. inland waterways, the Corps, working closely with the 
Coast Guard, transmitted a virtual aid to navigation to mark a 
sunken vessel where the establishment of a physical buoy was 
not possible due to adverse river conditions.
    Additional capabilities include transmitting water current 
velocities to towboat operators as they approach lock 
structures so they are situationally aware of unexpected 
adverse conditions at the lock entrance. We believe 
transmitting such information will help increase lock 
reliability, and improve mariner safety by reducing allisions 
that can damage or close locks.
    We continue to work with NOAA, the U.S. Coast Guard, the 
National Geospatial-Intelligence Agency, and other Federal 
providers of navigation information to create an integrated 
marine safety information service for all waters of interest to 
U.S. mariners. This will provide commercial mariners and the 
public with common access to marine safety information that is 
tailored for their specific needs, available in formats usable 
on their specific equipment or systems.
    In closing, the Corps is actively engaged with partner 
agencies and maritime users to accelerate the development and 
deployment of technological enablers for the mariner, while 
harmonizing data through e-navigation principles. We are 
committed to improving our use of data from other agencies and 
waterway stakeholders and to making our data and information 
widely available for others to use.
    I appreciate the opportunity to testify today, and look 
forward to answering any questions you may have.
    Mr. Gibbs. Thank you. I will start off the questions. For 
Admiral Thomas and maybe Admiral Smith, I guess both, you know, 
we have seen technology just grow immensely in the last couple 
decades. Satellite technology and navigation technologies and 
all of that. And I guess Admiral Smith mentioned about how you 
were working to do a national charting plan and looking for 
input from the public, and then to Admiral Thomas, responsible 
for this electronic navigation, getting all the vessels and 
real-time information.
    How is that being incorporated between the two? And then, 
you know--and I guess a simpler question, too, is: is there an 
e-navigation app? What is the status on this technology in both 
commercial and recreational users, and how does this 
incorporate what Admiral Smith is trying to do with the 
charting?
    Admiral Thomas. Well, thank you for the question, Mr. 
Chairman. There--it is a great question. There is a lot going 
on, a lot of new technologies.
    We coordinated our efforts between our three agencies and 
many others through the Committee on the Marine Transportation 
System, which I mentioned. And that particular committee has an 
e-nav subcommittee that is focused exactly on your question, 
which is how do we make sure that we are developing systems 
that work with each other, that talk to each other, and that 
are going to be accessible to the users on the waterway.
    And I will let Admiral Smith talk about some of the 
technical details, because he is more conversant on those, but 
I will just add that a huge part of getting to where we need to 
be with e-navigation is harmonization of the data sets kept by 
the Army Corps, the NOAA, and the Coast Guard. And we are 
working hard on that and making great progress. And when that 
effort is complete, you will see leaps and bounds of progress.
    Mr. Gibbs. Is the technology being adapted by both 
commercial and recreational users of vessels? Is it adaptable 
so they can use it?
    Admiral Thomas. Yes, Mr. Chairman, it is. And we see, you 
know, broad use of--as we develop products and make them 
available, we are seeing them used very broadly----
    Mr. Gibbs. How does that incorporate with--you say you are 
doing a national charting plan, looking for public input. How 
do you merge the two together so it is friendly for the users?
    Admiral Smith. Yes, sir, Mr. Chairman. The charting plan is 
really specifically about charts. We have a very robust 
distribution system for charts that go from recreational, chart 
plotters, and the light commercial systems that are in use and 
all the way up to the type-approved systems. All of that is 
very mature.
    What we are hoping to add on, through our joint 
distribution of other types of data, are the tides, currents, 
weather, and EMSI, and for the data to be well integrated into 
these systems. Some systems are already at this level of 
maturity but there is room for improvement in standardization 
and the way that that data are distributed.
    Mr. Gibbs. Mr. Belk, you know, there is over 25,000 miles 
of Federal navigation channels, and the Army Corps is 
responsible for conducting hydrographic surveys. And I think in 
fiscal year 2016 the workplan for your operation and 
maintenance, there was 30 entries for project condition 
surveys, totaling $17.5 million. Would you say that amount is 
high, average, or about right?
    Mr. Belk. Could you repeat the question, Chairman? I missed 
part of that.
    Mr. Gibbs. Well, about the surveys, I think this past 
year--your plan of operation and maintenance, you had 30 
entries for project condition surveys, nearly $17.5 million. Is 
that a typical figure? Is that about right, or is that not 
enough, or----
    Mr. Belk. Chairman, that is about right. We received some 
additional funding from the Congress this year that we are able 
to utilize through our workplan to get after and take care of 
more condition surveys this fiscal year.
    Mr. Gibbs. We are talking about the Federal navigation 
channels. What role would the Inland Water Users Board and also 
vessel operators play? It just came to my attention up in the 
Cleveland Port in my area--I am from Ohio--there is a question 
about the survey getting done for dredging the Cuyahoga River 
at the port.
    That is--you know, what kind of input does the port get 
from the operators? And then, of course, you know, elsewhere, 
in the Inland Waterways User Board--what kind of input, what 
kind of interaction is there between your shop and them?
    Mr. Belk. Yes, sir, Mr. Chairman. Thank you for that 
question. There is a tremendous amount of interplay between the 
Army Corps of Engineers and the Inland Waterways User Board. In 
fact, our next meeting of the Inland Waterways User Board will 
be the first week in October in Chicago. We meet quarterly.
    The Inland Waterways User Board is comprised of senior 
leaders from across the navigation industry that are appointed. 
The Corps of Engineers is also involved in that user board. We 
get tremendous input from them, and we also are able to 
describe to them our challenges and the priorities that we are 
getting from the Congress. Together we are able to describe 
where we can apply the funds we do get to buy down the most 
risk.
    One of the accomplishments that we have achieved this year, 
in partnership with the Inland Waterways User Board and 
industry, is the capital investment strategy that lays out a 
20-year plan. It will invest almost $5 billion over 20 years to 
buy down the most risk across the national system.
    That partnership with the Inland Waterways User Board has 
resulted in our ability to identify and buy down the most risk 
with each dollar that is appropriated by the Congress.
    Mr. Gibbs. Yes. I want to--in a future question--my time is 
up--I want to talk a little bit--I want to ask more questions 
about the capital plan.
    At this time I yield to Ranking Member Grace Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. The Federal 
maritime programs we are discussing today are in place to 
provide efficient and effective transportation of goods and 
people--especially important in my area.
    I am concerned when bad actors--this is a little bit out of 
the bailiwick here, but I am concerned that bad actors in the 
shipping industry have recently--one of them has recently 
declared bankruptcy. Hanjin. And it affects our national 
economy, putting employees out of work, the transportation 
sector out of work, delayed arrival of goods, and increasing 
the shipping rates. There are several ships already sitting out 
in the sea.
    I recognize the subject is not the topic of today's 
hearing, and witnesses are not involved in the economics of 
global shipping, but I would ask any of the witnesses to 
comment on the current trends in global shipping and the crisis 
in Hanjin ship sitting off our coastline. And are you concerned 
about that? I know the Coast Guard has a role to play in that.
    Admiral Thomas. Well, thank you, Congresswoman Napolitano. 
We are, of course, aware of the situation with Hanjin Shipping. 
There is tremendous pressure on containerized shipping--in 
particular, globally. There are a number of ships that have 
been laid up, and Hanjin is managing their financial crisis.
    You know, our role is to ensure that, before those ships 
enter U.S. ports, that they can meet their financial 
obligations, particularly those to the U.S. Government. And 
that is in the form of what we call a certificate of financial 
responsibility.
    In the case of the two ships that are currently off the 
west coast--and I believe one off the east coast--you know, 
Hanjin's longstanding financial arrangements have been 
nullified by their bankruptcy, but they are negotiating those 
arrangements on a case-by-case, ship-by-ship, port arrival-by-
port arrival basis, and I believe that they have reinstated 
their COFRs with the U.S., and they are making individual 
arrangements for port services, so that they can come into port 
and unload their cargo.
    Mrs. Napolitano. Good, because it affects the Nation, not 
just our western port.
    Mr. Belk, your testimony notes the potential benefit of 
vessel automatic identification system to address congestion 
along the inland waterways and coastal ports. The Water 
Resources Development Act of 2007 directed the court to 
implement vessel congestion mitigation strategy for the Upper 
Mississippi and the Illinois waterway slot. Can you give the 
committee an update on the implementation of these provisions?
    It seems that the trend is for Congress to fund the Corps 
at below capability, resulting in authorized projects taking 
longer for construction to get started, and for the American 
people to receive the benefit of this project. How can vessel 
congestion strategies such as the automatic identification 
systems be used as we wait for construction funds to--for these 
authorized navigation projects?
    Mr. Belk. Yes, ma'am. Thank you for the question. The Corps 
of Engineers is working very closely with the industry at a 
number of levels, to make sure that we are communicating with 
each other and are aware of traffic movements as they occur. 
The Inland Waterways User Board is at the strategic level, and 
we also have regional boards, like the regional--industry 
executive task force that we work with to look at traffic 
patterns. We have daily communications between our field folks 
and the Coast Guard and the navigation industry to make sure 
that we are all talking and understand the movement.
    In addition, we have developed a couple of tools recently 
that we have made available. One we released just this spring 
announces publicly on a Web site all proposed channel closures 
and restrictions that we anticipate in the coming work season. 
What that allows the industry to do is make plans weeks and 
months in advance to account for those kinds of construction 
improvements, so that they are not an active discovery. Having 
those identified and posted helps industry react and reduce the 
impact to the American people.
    Mrs. Napolitano. Thank you for that. Mr. Chairman, I yield 
back.
    Mr. Gibbs. Mr. Webster?
    Mr. Webster. Thank you, Mr. Chair. I have a NOAA question.
    Our State--my State, Florida, and our water management 
districts, which are regional--and then we have county 
governments--they do hydrographic surveys. And I am wondering, 
is that information that they gather, is that used in 
coordination with what you are doing, as far as that same 
effort?
    Admiral Smith. I am familiar with a few surveys from a few 
years ago that were in areas of borrow pits and that sort of 
thing for coastal Florida. And we do use that information when 
we become aware of it.
    We have an active program under our integrated ocean and 
coastal mapping program, where we band together with several 
different mapping organizations for the Federal, State, local, 
and even private sector, so that we stay aware of what data is 
available. And we do use it for charting, where it is relevant 
and suitable for charting.
    Mr. Webster. Is there a standard--some kind of standard for 
the data in the way that it is formatted, or anything like 
that, that would be helpful, that that information might even 
be better used?
    Admiral Smith. Modern systems are generally interoperable. 
We generally can read each other's data without much of a 
problem. There are issues sometimes with datums--the vertical 
and horizontal references for the data.
    NOAA's VDatum is a nationwide program that allows us to 
transform data from one datum to another, so that most of those 
interoperability problems are now taken care of.
    So, the most important thing is for us to know about 
available data, and for it to be relevant for navigation. Not 
all hydrographic surveys that are done are relevant for 
navigation.
    Mr. Webster. Would it be easy for them to adapt to 
gathering the data that you would need with--and that some of 
the mechanics are the same and so, therefore, would it--is that 
something that they could do that would make that data better?
    Admiral Smith. We have a set of publicly available 
documents called our specifications and deliverables for 
hydrographic surveys, which define exactly what it is that we 
need from a survey data set to be fully compliant for 
navigation. Contractors could use these specifications for a 
reference.
    However, that is if we contract for a survey. If someone 
does a survey for another reason, we can use that data to its 
full effect, as long as it has some relevance for navigation.
    Mr. Webster. Thank you very much. I yield back.
    Mr. Gibbs. Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    Admiral Thomas, I read from staff that, you know, you are 
augmenting physical aids to navigation with electronic. That 
sounds OK. But it goes on to say, ``Reduce, where possible, the 
number of physical ATONs that require regular seasonal 
maintenance.''
    I realize you have budgetary issues here, but here is my 
concern. You know, you are now allowing people to not carry 
physical charts. And unless their own computers were corrupted, 
that probably isn't a big issue. But we have talked about the 
vulnerability of the GPS system. Congress mandated that you 
move ahead and look at, you know, what we might use as a 
backup. But, you know, we have a report from GAO that was 
rather critical a couple of years ago about DOT and DHS making 
any progress on what would be or what is the necessity of 
having a backup system.
    So, I am concerned that this is yet another step. I mean, 
so if I don't have physical charts but, you know, I have still 
got charts, let's say, either on my computer or I have got a 
physical chart, and I can navigate to an actual buoy, if the 
system is down, great. But if we take out the buoys and we are 
now going to have virtual buoys, you know, we are creating yet 
another vulnerability. And I am very concerned about this 
trend.
    And, I mean, can you tell me where are we at in developing 
a backup system?
    Admiral Thomas. Well, thank you, Congressman, for the 
question. Really, two parts there. I will--we have not removed 
a single physical aid to navigation, as a result of our ATON 
initiatives.
    And, in fact, we are augmenting our physical systems. We 
are looking at modernizing our physical aids. You know, what 
are the buoys? How can--because--you know, how can we make them 
lighter? Because all those things drive the requirements for 
the cutters that I discussed that definitely need to be 
recapitalized. So physical aids are and will continue to be an 
integral part of our navigation system, and we are on record of 
saying that the physical aids are, in fact, the backup for the 
electronic navigation systems.
    We share your concern, and I know Congressman Garamendi 
shares it as well, with what is the national backup for our 
precision navigation and timing system. This is a piece of 
nationally critical infrastructure that is essential for all 
modes of transportation. It is essential for many utilities, 
for financial systems. It is essential for national defense. 
Our Nation needs a backup system.
    The Coast Guard is supporting DHS in their role on the 
National Executive Committee for Space-Based Positioning, 
Navigation, and Timing, and we are confident that they are on 
the right track to identify the right solution for our Nation, 
and that that solution, once in place, will have utility for 
maritime navigation, as well as for all the other systems that 
depend----
    Mr. DeFazio. Do we have a timeline on when some conclusion 
is going to be reached?
    Admiral Thomas. You know, we support the effort, and we are 
currently working with the NextCom to identify their 
requirements for a national backup for PNT. That document is 
supposed to be completed this year. And once their requirements 
are known, we can move ahead smartly, identifying the potential 
technologies that might be employed to give us the backup 
capability.
    Mr. DeFazio. OK. Thank you. Admiral Smith, you mentioned 
about--that, you know, you can use survey data that was done 
for other purposes, if it is verified. I am wondering. Are we 
anywhere near technology where--I mean, you know, we have 
Google Maps, and they can tell me where congestion is because 
of crowd-sourcing on the highway.
    Is there any potential or possibility that either, you 
know, through ships transmitting real-time data as to depths--I 
know--let's say, for instance, recreationally, the inland 
waterway east coast, big problem, shifting bars, et cetera. If 
people were certified and set up to transmit data back to you 
real time--and, you know, could that--is that a possibility? Is 
that something you are looking at?
    Admiral Smith. Yes, sir. We have stood up--under the 
auspices of the International Hydrographic Organization, and 
with some of our international partners, a data center at the 
former National Geophysical Data Center in Boulder, now the 
National Centers for Environmental Information. This cloud-
sourced database allows any user to upload their vessel's track 
line information, which contains their GPS coordinates and 
their depth readings, and will pull that information together 
and make it available to any user. So this is publicly in, 
publicly out. It is run by us, but it is not quality 
controlled.
    This has just stood up in the last few months. We envision 
using this to be able to assess where the sea floor is 
changing, and where we have problems with our charts. And 
perhaps, once we see how dense the data is and how confident we 
are, to make temporary chart changes while we are waiting for a 
full survey to resolve the issue.
    Mr. DeFazio. So you would advise mariners that this is from 
aggregate data, you haven't certified it through an actual 
hydrographic survey, but caution or whatever should be 
exercised in----
    Admiral Smith. Yes, sir. On the paper charts we can display 
it in a slightly different way. Through electronic systems 
there are some flags that we can put on the data to indicate 
that it is not from a real survey.
    Mr. DeFazio. Right.
    Admiral Smith. And we use a similar type of arrangement for 
satellite-derived imagery, which we also have less confidence 
in.
    Mr. DeFazio. OK, thank you. And I do want to just say, as a 
comment, that I am very concerned about the age of the fleets 
being used, both by the Coast Guard and NOAA. And it is long 
past time where Congress should take definitive action, because 
we are looking at crippling ourselves if we don't make these 
investments in new ships and the technology that could 
accompany them.
    Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman.
    Mr. Belk, a quick question for you. Section 1034 of WRRDA 
2014 directs the Corps to encourage the adoption of advanced 
modeling technologies to streamline project delivery or improve 
upon water resource projects. How has the Corps utilized its 
authority to adopt or aid any e-navigation technologies?
    Mr. Belk. Yes, sir. Thank you, sir, for the question. So 
the use of modeling is critically important to the Corps to 
inform both how we design and construct our infrastructure, and 
also how we operate and maintain it. We are making significant 
investments in those capabilities, primarily through our 
Engineer, Research, and Development Center, where we have 
world-class experts who help us use the best available 
technology, best available models--both physical and 
mathematical models--to inform our designs and our operations 
and maintenance practices.
    So, we are making investments there, and we are applying 
the results we get from those efforts to more efficiently use 
the dollars that we get from this Congress to operate and 
maintain our Nation's waterways infrastructure systems.
    Mr. Davis. OK. This is a question for all three of you, I 
guess. Are any of your agencies utilizing drone technology to 
help with your mapping process? And, if so, are you running 
into any issues with the FAA?
    We will start with you, Mr. Belk.
    Mr. Belk. We are utilizing drone technology. We use it more 
for aerial surveys than mapping. For example, we had some 
significant flooding over parts of the Mississippi Valley and--
well, significant portions of the Nation this year. We would 
frequently use drones to provide us a quick aerial view of what 
is happening on the ground, so that we can more quickly 
assimilate what we need to do in the way of disaster response. 
We are using it more in that mode than we are in surveys, 
although we are doing a little of both.
    Mr. Davis. Are you running into any problems with the FAA 
certifying your ability to use them?
    Mr. Belk. Sir, we have to work within DOD requirements as 
we use those technologies. I wouldn't say we are having 
problems, but there is a process that we have to go through in 
order to use those technologies.
    Mr. Davis. OK. Admiral Smith?
    Admiral Smith. Sir, NOAA, in general, uses drones in a 
variety of ways. We don't use any directly for the charting 
program. If, by drones, you mean airborne. We do have some on-
the-water assets, which are small autonomous survey vessels, 
which do share some of the benefits of airborne drones, and 
some of the challenges of having unmanned systems out there. 
And we are working right now within some very tight guidelines 
and with some emerging best practices that the Coast Guard is 
publishing.
    Mr. Davis. OK, thank you.
    Admiral Thomas?
    Admiral Thomas. Sir, we don't use unmanned aerial systems 
in the prosecution of our missions related to marine navigation 
or aids to navigation. The Coast Guard is testing systems that 
we use off of our cutters for, you know, extending the legs of 
those cutters. But that is not within my portfolio.
    Mr. Davis. Mr. Belk, I have got a little bit of time left. 
As you may know, I am from central Illinois, so the Mississippi 
River and Illinois waterways are a priority of mine, and have 
been for a while. I am a strong proponent of maintaining the 
lock and dam systems we have there, and upgrading them.
    What would you say is the current conditions of the locks 
and dams on the Upper Mississippi and the Illinois?
    Mr. Belk. The Corps of Engineers supports interstate 
commerce and international trade. And so, navigation is crucial 
to enabling that. And our lock and dam systems are key to that. 
We have a number of locks on both the Illinois that you are 
particularly interested in, and the Upper Mississippi. The 
condition varies, but there are significant requirements we are 
having to place in the operation and maintenance of those as 
they age. They are in excess of 60 years old, on average.
    Mr. Davis. And with that, the age, what kind of impact do 
you think that age is going to have on our ability in the 
Midwest to move commerce up and down the navigation system? And 
is the Corps ready to move forward with maintaining and--you 
know, our goal is to expand them.
    Mr. Belk. Yes, sir. Fortunately, Congress has provided 
additional funding in the last few appropriations acts, that we 
have been able to use to buy down risk across that system.
    We are also applying asset management principles across our 
entire portfolio of inland navigation infrastructure, to 
include the Illinois and the Upper Mississippi. What that 
allows us to do is identify the risk associated with all our 
assets, and the consequences of failure of those assets. Those 
two things help us decide what our right priorities are so that 
every dollar we get from this Congress we apply to buy down the 
most risk.
    So, a lot of that does go to the Illinois and the Upper 
Mississippi, but other parts of the Nation, as well.
    Mr. Davis. And I am going to break the rule and quickly ask 
you. What is it going to take to get shovel ready and shelf--
off the shelf?
    Mr. Belk. Sir, at this point the project has been 
authorized and we will move as quickly as appropriations and 
funding allow.
    Mr. Gibbs. Mr. Garamendi?
    Mr. Garamendi. Thank you, Mr. Chairman.
    Admiral Thomas, a moment ago, in response to a question by 
the ranking member of the full committee, Mr. DeFazio, you said 
that the Coast Guard is going to complete a study on 
technologies that might be available as a backup system some 
time this year or in the near future. Could you expand on that 
and tell us what that study is all about and what technologies 
you are looking at?
    Admiral Thomas. Congressman, let me first thank you for 
keeping us all focused on this really critical issue of a 
backup position navigation and timing system for our Nation. I 
may have misspoke, but what I meant to say was that the Coast 
Guard is supporting DHS in their role on the National Executive 
Committee for Space-Based PNT. That committee is undertaking 
currently a requirements generation effort, which will define 
the requirements for a complementary PNT system. And once those 
requirements are defined, the executive committee will then 
begin the assessment of competing technologies that might meet 
that requirement.
    So it is not a Coast Guard study. Coast Guard is certainly 
supporting the department. NPPD has the lead for the department 
in that. And, as you know, DOT really has the lead for our 
Nation.
    Mr. Garamendi. What is the timeline for the completion of 
this?
    Admiral Thomas. I can't speak to the completion of the 
technology assessment, but I think--I am told the goal for the 
completion of the requirements document is this year.
    Mr. Garamendi. I am just trying to add up the number of 
years that this process has been underway, and I think it is 
approaching 20. And, frankly, I don't understand. It makes 
absolutely no sense to me. We know that there is a backup 
system that is deployed in other parts of the world, as in 
China and Russia, and in parts of Europe. And I don't get it. I 
really don't.
    And you are right, it is a mission of mine. So I think I 
will continue to push and shove. Frankly, I am very, very 
disappointed in the administration in all this--as it continues 
to circle around and circle around what we know is a backup 
system that is readily available to us. And we do know that 
GPS--one further question before I just continue on that way.
    All of this new navigation electronics, as mentioned in 
your paragraph here, ``the use of and increasing dependence on 
electronics and technology.'' Is that dependent on GPS?
    Admiral Thomas. Very much so.
    Mr. Garamendi. I thought so. Just wanted it on the record.
    A couple of other questions come to mind, and I will get to 
those. The Arctic, I don't think we have discussed the Arctic 
yet today.
    Admiral Smith, I think you are at least partially 
responsible for the navigational guides and charts of the 
Arctic. Please update us.
    Admiral Smith. Congressman, we have a suite of charts for 
the Arctic, which we have had for many years. The data on those 
charts is pretty old. And in some cases we don't----
    Mr. Garamendi. But what does ``pretty'' mean? Eighteenth 
century, seventeenth century, sixteenth, or maybe twentieth?
    Admiral Smith. Yes, going back to the 1800s in some cases. 
But, in fact, that is true in other parts of the country, as 
well.
    And so we are concerned about this, and we have been 
prioritizing our survey efforts and our charting efforts on the 
current and expected growth in economic activity in the Arctic. 
So we have been working with the Coast Guard on the port access 
route study, where most of the traffic will be, and ensuring 
that those areas are well surveyed and well charted. The Red 
Dog Mine and other local areas of economic activity have been a 
high priority.
    Whenever we hear about more vessels needing to go ashore or 
going into places, those areas become our next priority----
    Mr. Garamendi. So, really, the best method we have of 
knowing what is beneath the surface of the ocean is when 
somebody goes ashore and we can say, ``Ah, we have discovered a 
new shoal''?
    Admiral Smith. No, sir, that is not what I meant. I meant 
that areas of increased vessel activity were an indication of 
where we needed to prioritize our efforts.
    Mr. Garamendi. So when they go ashore we want to know why 
and where.
    What resources would be necessary to deal with this Arctic 
situation, which we know is the new Northwest or Northeast 
Passage? What kind of--what resources are necessary to try to 
get ahead of the shoaling of various vessels, which apparently 
is the way in which we now know there is a new shoal or an old 
shoal that we didn't know about? What do we need in resources?
    Admiral Smith. I want to just clarify my remarks if you 
thought that I meant that we were updating the charts based on 
shoaling. Many small craft in Alaska actually are landing 
craft, because there is no port facility. When they go ashore, 
moving up onto the shore is how they get their fuel and other 
things to the small towns up there.
    So, after that clarification, the resources--we clearly are 
not going as fast as we could. We are hampered, as I said in my 
opening remarks, by the short survey season, by the age of our 
ships, and their ability to go to these remote places safely, 
and by the need to balance our survey and charting resources 
across the whole country.
    Mr. Garamendi. Just a final comment here. We have done 
numerous hearings about the Arctic, about the necessity of 
understanding the Arctic in detail, everything from icebreakers 
to beyond. And in every one of those hearings, the issue of 
charting and understanding the sea floor is of critical 
importance.
    I need from you and from the Coast Guard--we need, I should 
say--specific information on what the requirements are to 
advance our knowledge of the sea floor in the Arctic, so that 
we can avoid shoaling as the principal way of understanding 
where the reefs are. So could you deliver some level of 
knowledge and information to us so that we might put that into 
our planning?
    Admiral Smith. Yes, sir. I know we are over time here, but 
we did conduct a study of Arctic gaps and plans at Congress' 
request, and that study is currently in clearance.
    Mr. Garamendi. Thank you.
    Mr. Gibbs. I just thought I would make a comment. I believe 
that this committee 4 years ago kind of gave a blank slate to 
move forward in this. And I think you need to report. You can 
get back to the Coast Guard and Maritime Transportation 
Subcommittee. It would be much appreciated--in a timely manner. 
Thank you.
    Mr. Sanford?
    Mr. Sanford. Under the category of technological change, 
for instance, the port in Charleston, obviously, would have a 
lot of commercial users, and it would have backup with a paper 
chart. But the bulk of, for instance, the First Congressional 
District would be charted but irrelevant to a commercial user. 
So, as a boy, we would use charts wondering around St. Helena 
Sound or Port Royal Sound. But now, hop in a little boat, and 
it has got a Garmin, and off you go.
    Can you give me the breakdown--first of all, are the paper 
charts a loser, from a financial standpoint, or a winner? Do 
you make money on them, or you lose money on them?
    Admiral Smith. We do not sell charts directly any more. So 
we have privatized the entire printing and distribution for 
paper charts.
    Mr. Sanford. So then they--it is a contract and they pay 
you for the ability to do so?
    Admiral Smith. They give us a very small royalty, which 
basically covers the cost of the servers that we need to----
    Mr. Sanford. So it is a wash.
    Admiral Smith. We are not making any money on it. No, sir.
    Mr. Sanford. Losing money, or no?
    Admiral Smith. Well, we have appropriated funds to provide 
charting services for the----
    Mr. Sanford. How much is that?
    Admiral Smith. So, overall, if you are including the 
surveys as well as charting--and if you include our contracting 
efforts and our own ships, it is about a $128 million program.
    Mr. Sanford. So we spend $128 million on that, some of 
which would be things like the Arctic sea floor, where there 
aren't, you know, a lot of recreational users up there. But if 
you break out that portion, which we particularly--it would 
either be commercial or scientific versus recreation--what 
would the split be, roughly, in terms of users?
    Admiral Smith. That is not a very fine line. As you pointed 
out, some of these areas overlap.
    In the last 25 years or so, since the technological 
revolution, where we could get full-bottom sea floor surveys, 
we decided 25 years ago to focus our efforts with this new 
technology on deep draft ships going to major ports.
    Mr. Sanford. OK.
    Admiral Smith. That has been the focus of our efforts for 
the last 25 years. During those 25 years we have spent less 
time in recreational areas, as----
    Mr. Sanford. I guess my point, what I am getting at, is 
would there be a way of saying we are just not going to do that 
part any more? I mean, you know, St. Helena Sound is an 
interesting place, I love it, but it is irrelevant, from the 
standpoint of a commercial user. And the local shrimp boats 
that go there, they know the waters real well.
    So, I mean, would there be a big cost savings in saying 
there are certain areas we are just not going to do any more, 
and people can figure that out on their own, or no? It is on 
the margin?
    Admiral Smith. My responsibility in my position is to 
provide safe navigation services to all boaters on the water. 
We make every effort to manage----
    Mr. Sanford. Understood. But I am just saying, I mean, the 
vast majority of those recreational users aren't pulling a 
chart any more. If they are using anything, they are using, you 
know, Garmin or whatever, and----
    Admiral Smith. Maybe I could clarify that, because Garmin 
gets their chart information from us.
    Mr. Sanford. Right.
    Admiral Smith. So the charts that they are using are ours. 
Garmin is redistributing them and making them available in a 
convenient and well-designed device that suits their needs.
    Mr. Sanford. And it would be updated----
    Admiral Smith. The source charting information is still 
ours.
    Mr. Sanford. Sure. And they would be updated how often?
    Admiral Smith. It depends on the area. A lot of those are 
Army Corps surveys that we update as frequently as they come 
along.
    Mr. Sanford. Which would be how often?
    Admiral Smith. It depends. Sometimes they survey once a 
month, sometimes every 5 years. So it depends on how----
    Mr. Sanford. So there is this split, currently, then. So if 
it is a more recreational area, not a lot of commercial users, 
it might be once every 5 years if they are doing--again, using 
St. Helena Sound as an example. Would that be right?
    Admiral Smith. I don't know the details on that particular 
body of water.
    Mr. Sanford. No, I am just picking it randomly.
    Admiral Smith. Yes, sir. So less--if it changes less often, 
and it is less critical, it will be surveyed less frequently.
    Mr. Sanford. OK. How about the--I guess what I am looking 
for are cost savings. So you got 47,000 buoys. You are 
spending, I guess, close to $1.5 billion in maintaining all of 
that. Is there a way, given the way that technology has 
changed, such that you maybe don't have to do as many buoys as 
you used to?
    Admiral Thomas. Well, thank you for the question. I mean we 
are always looking to optimize our physical aids constellation, 
and we have a process whereby we analyze where they are and 
whether or not they need to be there. And that involves a great 
deal of stakeholder input. The majority of our stakeholders on 
the waterways want to keep the physical aids in place, and it 
is very difficult to remove even one or two aids although, you 
know, we are doing the studies that we need to do in order to 
optimize the physical aids.
    But even more importantly, we are studying how to modernize 
our physical aids, so that they are more cost effective, they 
can stay on station longer, they require less maintenance. And 
that is really the way ahead for physical aids, as opposed to a 
concerted effort to reduce the number of aids out there. It is 
really to make the ones that are out there more efficient so 
that we can maintain it less expensively.
    Mr. Sanford. Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Maloney?
    Mr. Maloney. Thank you, Mr. Chairman.
    Admiral Thomas, I just wanted to ask you a couple of 
questions about some activity that is going on in the--proposed 
activity that is going on in the Hudson River Valley area of 
New York that I represent.
    You know, first, let me just say thank you for your 
service, thank you for the work that the Coast Guard does. I 
think all of us really appreciate how difficult and how 
important the mission is.
    I wanted to draw your attention to a matter of great local 
concern, which is a proposal to create 10 new anchorage sites 
along the Hudson River. You have a rulemaking process that is 
underway right now. We are talking about sites from Yonkers, 
New York, up to Kingston. We are talking about over 1,000 acres 
of the river, 43 new sites. These are massive oil barges that 
would be docked and anchored in an archipelago that would 
stretch for miles up the Hudson River, creating, effectively, 
an oil pipeline in the center of the river. This would be in 
addition to the massive number of oil trains and oil shipments 
that are occurring along the CSX line on the west bank of the 
Hudson River.
    So, this is generating, as you might imagine, intense local 
concern that crosses all sorts of party lines and all sorts of 
layers of Government. You have had people from the Democratic 
mayor of Yonkers say this is going to destroy their waterfront 
revitalization program, you see the conservative county 
executive of Westchester agreeing with him. Same is true for 
the Republican county executive of Duchess County, the 
Democratic county executive of Ulster County, groups like River 
Keeper and Scenic Hudson that are worried about the river.
    And here is the point. The point is that we believe this is 
a solution in search of a problem, that there is no need for 
these additional anchorage sites for several reasons.
    First, they already exist, they are simply spaced 
differently.
    Secondly, they are predicated on the notion that there will 
continue to be a massive increase in the number of oil 
shipments required down the Hudson River when, in fact, the 
significant compression in the price of oil globally has 
created a glut, and we have seen a reduction in shipments, so 
that the infrastructure that has been contemplated may not be 
in any way necessary. And yet we are moving aggressively 
forward on this process.
    Now, I want to thank you for responding to my request and 
others' to extend the comment period for this through December. 
That is a great first start. But I would really like to draw 
your attention to it because the fact is that this is a bad 
idea. This is not something we need. We don't want it. And we 
want the process to take into account the intense local 
opposition to this from all corners of all communities in the 
Hudson Valley.
    So, I just want to take the opportunity today to draw your 
attention to that, and ask for your commitment that when the 
public hearings occur, that, one, they will occur in a early 
and timely way, and that they will be local, and that they will 
take into account as many as these local viewpoints as they 
possibly can, because at this point in the process I can tell 
you that the people in the Hudson Valley feel as though their 
voices have not been heard on this proposal, and they are very 
concerned with the rate at which it is moving.
    So, we appreciate the additional time to comment, but I 
would really like your commitment on really including local 
voices in the public hearings that should occur locally, and 
the need to happen sooner, rather than later.
    Admiral Thomas. Congressman Maloney, thank you for bringing 
that issue to my attention. I am very much aware of it, and I 
will say that, as a previous captain of a port myself, I am 
very sensitive to local issues and the intense interest in what 
happens on local waterways.
    The increased activity on the Hudson River is a symptom of 
the increased pressure on our Marine Transportation System. The 
Coast Guard is trying to manage the risks. The anchorages 
themselves, as you point out, don't create the increased vessel 
traffic. Those anchorages are one means--just one means--that 
we are exploring to manage the increased risk associated with 
more crude oil moving down the river and more products moving 
up the river.
    I have spoken with the district commander, Admiral Steve 
Poulin, in fact, just yesterday about this topic. He is 
committed to full and open dialogue with regard to this 
regulation, and he is totally open to all the alternatives that 
are out there to help manage this risk. So we can commit to you 
that there will be plenty of opportunity for comment, not only 
to the record, but also through public meetings.
    Mr. Maloney. Thank you very much.
    Yield back, Mr. Chairman.
    Mr. Gibbs. Thank you. I got some more questions.
    Mr. Belk, what is the process that the Corps uses to 
determine when they do surveys in the channels for dredging? 
You know, is it a routine process, where you know you are going 
to have to go in and check it? Or do you get information from 
the vessel operators in the industry? Can you just kind of 
expound about how you go about that, how the court goes about 
that?
    Mr. Belk. Yes, sir. Yes, sir, Mr. Chairman. Thank you for 
the question.
    Our survey approach will depend on a couple of things. It 
will depend on the use of that waterway, or that harbor, or 
that channel, and it will depend on the shoaling patterns of 
that channel. What that means is, on a very few projects, we 
will perform surveys daily. But on most we will perform them 
weekly or monthly. On some we will do it even once a year, 
depending again on shoaling patterns and on the tonnage that 
moves through that harbor.
    Having said that, we also are in regular daily 
communications at our operational level with the towboat 
industry and with the Coast Guard. So if there are any 
anomalies that pop up between surveys, or that were overlooked 
in a survey, we have means to get visibility of those very 
quickly, and respond appropriately.
    Mr. Gibbs. Well, I think you are prepared to answer this 
question about the Port of Cleveland. What is the status on 
that survey?
    Mr. Belk. Yes, sir, I am tracking that concern of yours. 
The Corps has allocated funding to conduct maintenance dredging 
in Cleveland Harbor, but it has not dredged the harbor yet in 
2016. The Corps has completed three surveys of Cleveland Harbor 
navigation channel to date. A fourth survey is scheduled to be 
completed this week.
    Results from the previously completed surveys indicate that 
the channel is navigable without restrictions and, therefore, 
dredging is not necessary at this time. But we will see what 
our surveys indicate this week. The available depth is 23 feet 
for water maritime users, which meets the authorized depth. We 
will continue to monitor those conditions into the future.
    Mr. Gibbs. Yes, it is just kind of amazing to me, because I 
know they dredge it twice a year in the past, in the spring and 
fall, so it is just, you know--maybe with some of the things 
that port has done and the Corps has done to improve the 
situation--or maybe this stuff is starting to work, I don't 
know. At some point--maybe it was the weather, I don't know. 
But----
    Mr. Belk. Yes, sir.
    Mr. Gibbs. Being tentative----
    Mr. Belk. I think historical dredging has been very 
beneficial. I think if you look at the level of the Great 
Lakes, they have increased slightly in recent times, so that is 
helpful. And, frankly, the big factor, I think, is shoaling 
patterns in Cleveland Harbor are lower than they typically have 
been. So I think we are benefitting from all three of those 
factors.
    Mr. Gibbs. A little bit about the hydrographic data, does 
the Corps have the authority to acquire that from privately 
contracted entities, or does the Corps do it all?
    Mr. Belk. Yes, sir. The Corps uses both approaches. We have 
in-house hydrographic survey capability that we deploy, and we 
also leverage the private-sector surveying capacity.
    This fiscal year we are going to invest about $53 million 
with the private sector to help us with both hydrographic and 
topographic surveying of our infrastructure and our channels.
    Mr. Gibbs. You know, we talk a lot about the inland 
waterway navigation system and the average age of the locks and 
dams on that system. Where do you see the most acute place 
where commodities or industries might be affected? Is there one 
place on the inland waterway system that is really a concern to 
the Corps, a choke point?
    Mr. Belk. Sir, I think we take a global or a system view of 
our inland waterways transportation system, and a risk-informed 
view of how we apply funding, both for operation and 
maintenance and for capital investments.
    I also really want to thank you and the subcommittee for 
the authority you gave us in 2014 WRRDA to develop a capital 
investment strategy with the navigation industry that the 
Secretary of the Army was able to transmit to the Congress 
earlier this year. I think that has been very helpful and 
important to shape what our investment priorities need to be, 
so that the Congress can have that as they make decisions on 
what level of investment they want to make. They will know that 
it is going to buy down the most risk, and have the best 
positive effect on our inland waterways.
    Mr. Gibbs. Well, I appreciate that. I am a little concerned 
about the administration's proposed budget. You know, this last 
fiscal year--and, like you said, in WRRDA 2014 we took Olmsted 
kind of offline and changed how we funded that, and we started 
the projects, I think it was two lock projects on the Lower Mon 
that have started.
    But my understanding on the administration's proposed 
budget, that curtails that funding. And, of course, the whole 
concept was to start the Lower Mon projects and move to the 
Kentucky and the Chick locks.
    What's the status--if the funding is not there, if we went 
by the President's proposal, if I understand it right, is the 
work going to stop there at the Lower Mon projects, or is it 
going to be just dragged out and, you know, kind of funded a 
penny at a time? What is the status? What is going to happen 
with those projects, moving forward? Because the plan was, when 
we did this, was to get Lower Mon started and move to Kentucky 
and move to Chicka locks in Tennessee. And so what is the 
status, if Congress adopts, I guess, the President's budget?
    Mr. Belk. Yes, sir. Thank you, Mr. Chairman, for that 
question. It is very important to the Corps and to inland 
waterways users.
    The fiscal year 2017 President's budget proposed $225 
million for the Olmsted Locks and Dam project, the highest 
priority in our capital investment plan. No funding is proposed 
for Monongahela Locks and Dams 2, 3, and 4, also known as Lower 
Mon, for Kentucky lock, or Chickamauga lock. The fiscal year 
2017 budget amount of $225 million is below the $232 million 
budgeted in fiscal year 2016, but above the $160 million to 
$180 million that had been budgeted for construction in prior 
years.
    The administration believes this is the appropriate amount, 
given the President's fiscal priorities, the Corps' Civil Works 
responsibilities, and the need to reduce----
    Mr. Gibbs. Let me stop--ask this question.
    Mr. Belk. Yes, sir.
    Mr. Gibbs. OK. On the Lower Mon you--if I heard you right 
you said the President's budget does not provide the funding 
for the fiscal year 2017. Right? You said that, right?
    Mr. Belk. Yes, correct.
    Mr. Gibbs. What happens--do we have contracts that are 
going to expire in that time? Or is there already a contract to 
work past that time so the funding is there?
    Mr. Belk. Yes, sir. So, again, the President's budget was 
$225 million. Olmsted was a primary focus of those dollars. But 
the Congress this year, in the appropriation process and under 
the workplan process, we are able to invest some $404 million 
to our inland waterways construction account.
    What that means is we will not only address Olmsted at a 
capability level of funding, we are also able to pick up and 
continue working Kentucky lock, Lower Mon, and Chick lock with 
the funding provided by Congress in fiscal year 2016.
    Mr. Gibbs. OK, thank you. What's the responsibility of the 
Corps to survey and maintain the channels, the approaches, and 
the berths primarily used by the Coast Guard, Navy, and Federal 
Government? How does that interaction work between the Coast 
Guard and the Navy and--to get these surveys done for the 
channels that are important for them?
    Mr. Belk. Yes, sir. Thank you for that question. The Corps 
of Engineers surveying authority devolves from project 
authorities that the Congress gives us for navigation channels 
for commercial navigation. We execute those with dollars 
provided by Congress.
    We do have some authorities as a byproduct of those project 
authorities to do some of the surveying you described, but in 
other cases we don't. Where we don't, we can take funding from 
other agencies to perform those surveys that are outside the 
authority that Congress has given us for such surveys.
    Mr. Gibbs. I think--back to the hydrographic survey--I 
think the Corps has about 100 vessels for doing those surveys. 
What condition are those vessels in?
    Mr. Belk. Sir, it varies. But on balance, and across the 
fleet, they are older. I don't have an average age. I can get 
that back to the subcommittee. They are older, and we are--
again, like our sister agencies here--looking at 
recapitalization challenges as they continue to age.
    Mr. Gibbs. Of course, I guess you have got the option of 
doing more private contracting. You could do some of that 
anyways for the surveys, right?
    Mr. Belk. Yes, sir. We do.
    Mr. Gibbs. Are there many interruptions in transferring the 
data between NOAA and--or the Coast Guard? And if there was, 
has there been any delays that--this data we talked about that 
the Corps does, working with NOAA and the Coast Guard?
    Mr. Belk. Sir, we have not experienced any. We are required 
by statute to provide our surveys to NOAA within 60 days of 
obtaining them for our channel surveys, and we have been 
meeting those requirements. NOAA uses those surveys, in 
addition to many other sources of data, to execute their 
charting responsibility.
    Mr. Gibbs. If my memory serves me right, was there an issue 
in Corpus Christi on this?
    [Pause.]
    Mr. Gibbs. OK, I am done. I don't know if you got any 
followup questions, Mr. Garamendi.
    Mr. Garamendi. Thank you. I am going to take this in a 
somewhat different direction for a few moments, an issue that 
this committee, our subcommittee, has dealt with on and off 
over the years. And it is the salvage and marine firefighting 
regulations.
    The waivers for the response systems, including ships and 
other equipment, those waivers expired in February of 2015. 
Now, those are waivers given to private sector, so that they 
had time to invest in the necessary equipment and ships and 
other items to deal with pollution and--as well as fire and 
safety. This question, therefore, goes to the Coast Guard.
    Where are we with assurances that these private 
organizations actually have the equipment and are able to 
respond?
    Admiral Thomas. Congressman, I am not the best Coast Guard 
representative to address that issue. It falls under my 
colleague's response portfolio. I am familiar with the 
requirements for salvaging marine firefighting, the plans and 
the waivers. I don't have a current status, so I would have to 
take that for the record to get back to you with details.
    Mr. Garamendi. I thought that might be the case, the 
answer, but I threw it out there because we would like to get 
at this and have some assurances that these response mechanisms 
are actually in existence. And so, if you could run that back 
through the system and come back to us with an answer----
    Admiral Thomas. We will be happy to do that.
    [The information follows:]

        A long and collaborative development process led to the 
        identification of distinct salvage and marine firefighting 
        (SMFF) services for assessment, stabilization, and special 
        operations. This consultative process resulted in regulations 
        that went into effect in 2009, with a 2011 compliance date, 
        requiring tank vessels to plan for SMFF services. In 2013, SMFF 
        services became a required component for non-tank VRPs as well. 
        Today, all vessels which must have a VRP are required to plan 
        for SMFF response services.

        The Coast Guard instituted a verification program to review 
        SMFF resource providers' capabilities and planning from 2011 
        through 2013. The review and subsequent corrective actions, 
        which included the use of temporary waivers, improved the 
        overall quality of submitted information. To date, corrective 
        actions have been made by the SMFF resource providers and no 
        waivers remain in place.

    Mr. Garamendi. I have a series of five written questions 
that I would like to submit to the record and get that on the 
record.
    Mr. Gibbs. So ordered.
    I want to thank our panel for their distinguished service 
and for being here today. And also be aware--and I am sure you 
are aware--of how important it is to adopt all this new 
technology, get our inland waterway system and our ports all 
working, and work together with our intermodal systems for our 
national security and also our economic security.
    So thank you for your service, and this concludes the 
hearing.
    [Whereupon, at 11:31 a.m., the subcommittees were 
adjourned.]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
